OFFICE OF AUDIT
REGION 3
PHILADELPHIA, PA




                   The County of Northumberland
                           Sunbury, PA

        Homelessness Prevention and Rapid Re-Housing
                          Program




2014-PH-1004                                      APRIL 30, 2014
                                                        Issue Date: April 30, 2014

                                                        Audit Report Number: 2014-PH-1004




TO:            Nadab O. Bynum, Director, Office of Community Planning and Development,
               Philadelphia Regional Office, 3AD
               //signed//
FROM:          David E. Kasperowicz, Regional Inspector General for Audit, Philadelphia
               Region, 3AGA


SUBJECT:       The County of Northumberland, Sunbury, PA, Did Not Administer Its
               Homelessness Prevention and Rapid Re-Housing Program Grant According to
               Recovery Act Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of Northumberland County, PA’s
administration of its Homelessness Prevention and Rapid Re-Housing Program grant.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6730.
                                            April 30, 2014
                                            The County of Northumberland, Sunbury, PA, Did Not
                                            Administer Its Homelessness Prevention and Rapid Re-
                                            Housing Program Grant According to Recovery Act
                                            Requirements


Highlights
Audit Report 2014-PH-1004


 What We Audited and Why                     What We Found

We audited the County of                    The County did not administer its program according
Northumberland’s Homelessness               to Recovery Act requirements. Specifically, it did not
Prevention and Rapid Re-Housing             always (1) ensure that program participants were
Program grant because the chairman of       eligible for assistance, (2) maintain complete
the Northumberland County board of          documentation in the participant files, (3) ensure that it
commissioners requested that we audit       incurred only eligible expenses and properly supported
the program. The audit objective was to     them, (4) make draws from the correct grant line items,
determine whether the County                and (5) perform required unit habitability inspections.
administered its program grant in           It also did not return unused program funds as
accordance with American Recovery           required.
and Reinvestment Act requirements.

 What We Recommend

We recommend that the U.S.
Department of Housing and Urban
Development require the County to (1)
remit to the Commonwealth $15,183
from non-Federal funds for the
ineligible expenditures identified by the
audit so the Commonwealth can return
the funds to the U.S. Treasury, (2)
provide documentation to support the
$159,149 in unsupported expenditures
identified by the audit or repay the
Commonwealth from non-Federal funds
for any amount that it cannot support so
the Commonwealth can return the funds
to the U.S. Treasury, and (3) remit to
the Commonwealth $3,541 in program
funds on deposit in its grant account so
the Commonwealth can return the funds
to the U.S. Treasury.
                            TABLE OF CONTENTS

Background and Objective                                                        3

Results of Audit
      Finding: The County Did Not Administer Its Grant According to Recovery   5
      Act Requirements

Scope and Methodology                                                          12

Internal Controls                                                              14

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use           15
B.    Auditee Comments and OIG’s Evaluation                                    16




                                            2
                      BACKGROUND AND OBJECTIVE

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009, which included $1.5 billion for a homelessness prevention fund. Funding for this
program, called the Homelessness Prevention and Rapid Re-Housing Program, was distributed
based on the formula used for the Emergency Shelter Grants program. The purpose of the
program was to provide financial assistance and services to prevent individuals and families
from becoming homeless and to help those who were experiencing homelessness to be quickly
rehoused and stabilized. The funds provided for a variety of assistance, including short-term or
medium-term rental assistance; housing relocations; stabilization services, including such
activities as mediation, credit counseling, and case management; and financial assistance,
including security or utility deposits, utility payments, and moving cost assistance.

On August 13, 2009, the U.S. Department of Housing and Urban Development (HUD) awarded
the Commonwealth of Pennsylvania a $23.4 million Homelessness Prevention and Rapid Re-
Housing Program grant. The Commonwealth executed agreements with 74 subgrantees to carry
out program activities, including the County of Northumberland, which received an award of
$365,361 in program funds. The grantee and its subgrantees were required to expend 100
percent of their grant funds within 3 years from the date on which HUD signed the grant
agreement. Accordingly, the term of the County’s grant agreement ended on August 12, 2012.
The County spent only $291,829 of its grant funds. The following chart provides details.

          Eligible program activities           Budget           Expenditures
        Financial assistance                       $227,620          $173,295
        Housing relocation and
        stabilization services                        85,129             69,425
        Data collection and evaluation                43,478             39,986
        Administrative costs                           9,134              9,123
        Total                                       $365,361           $291,829

The County closed out its program in April 2012, leaving a balance of $73,532, which the
Commonwealth recaptured.

The Commonwealth monitored the County’s administration of the grant by conducting desk
reviews in May 2011 and January 2012. The Commonwealth found that the County did not
maintain adequate documentation to support the eligibility of program costs. As a result, in July
2012, the Commonwealth performed an onsite monitoring review of the County’s program. It
reported that it reviewed 153 participant files and determined that, overall, the County made




                                                3
ineligible payments totaling $188,325. 1 Therefore, it requested that the County repay that
amount. However, the County did not agree with the Commonwealth’s conclusions and
requested that we audit its program.

The objective of the audit was to determine whether the County administered its program in
accordance with Recovery Act requirements.




1
  Although the Commonwealth identified only $75,775 in ineligible expenditures during its review of the 153 files,
it did not use this figure in its calculation of the total ineligible costs that it reported in its monitoring report. The
Commonwealth considered some expenditures ineligible because documentation in a participant’s file was
incomplete or documentation was missing from the file. (We consider expenditures with incomplete documentation
or missing documentation unsupported costs.) To calculate the $188,325, the Commonwealth deducted the amount
of eligible expenditures that it identified during its review ($56,206) from the total financial assistance payments that
the County made ($170,254) and considered the difference ($114,048) ineligible. It chose this methodology because
the County did not provide 52 files for review, so it considered the payments related to those files ineligible. Since
the Commonwealth determined that 67 percent of the financial assistance payments were ineligible ($114,048
divided by $170,254 = .67), it applied that percentage to the amount the County spent for the housing relocation and
stabilization services activity and considered those costs ineligible as well ($46,181). It also declared that only 50
percent of the administrative ($4,562) and data collection and evaluation ($19,993) costs were ineligible because it
recognized that the County made an attempt to comply with the reporting and data collection requirements. Lastly,
the Commonwealth included $3,541 in program funds that was on deposit in the County’s bank account.


                                                            4
                                 RESULTS OF AUDIT


Finding: The County Did Not Administer Its Grant According to
Recovery Act Requirements
The County did not always (1) ensure that program participants were eligible for assistance, (2)
maintain complete documentation in the participant files, (3) ensure that it incurred only eligible
expenses and properly supported them, (4) make draws from the correct grant line items, and (5)
perform required unit habitability inspections. It also did not return unused program funds as
required. These problems occurred because the County did not provide adequate oversight of its
case worker, who was responsible for determining client eligibility and maintaining
documentation in the participant files, to demonstrate compliance with requirements and support
disbursements. Also, it lacked controls to ensure that it complied with program requirements for
incurring expenses, processing draws, and conducting inspections. As a result, the program did
not fully meet its intended goal of preventing homelessness or providing stabilization to those
with housing needs because the County made ineligible expenditures of $35,031, unsupported
expenditures of $159,149, and it needs to return $3,541 in unused grant funds to the U.S.
Treasury.



 Participants That Received
 Financial Assistance Did Not
 Always Meet Eligibility
 Requirements

               The County provided financial assistance totaling $173,295 to 205 program
               participants. We reviewed the files for only 199 participants because the County
               could not provide the files for 6 participants. Of the 199 participants, 43 did not
               meet eligibility requirements. As a result, financial assistance totaling $32,661
               that the County provided to these 43 participants was ineligible because the
               participants did not meet program requirements. The following paragraphs
               provide details.

               •   Twenty-five participants received program funds totaling $15,476 while also
                   receiving rental assistance from other housing subsidy programs, which is
                   prohibited. The County did not verify whether participants were already
                   receiving rental assistance from other housing subsidy programs. For
                   example, one participant received $1,200 in rental assistance. The County
                   paid $600 from program funds, and the other $600 was paid from the




                                                 5
                     County’s homeless assistance program. Section IV of the HUD notice 2 stated
                     that rental assistance payments could not be made on behalf of eligible
                     individuals or families for the same period and for the same cost types that
                     were being provided through another Federal, State, or local housing subsidy
                     program.

                •    Fourteen participants received program funds totaling $12,799 although they
                     were not eligible because they did not meet income eligibility requirements.
                     The documentation in the participant files showed that the family income
                     exceeded area median income limits. Section IV of the HUD notice required
                     program participants to have an initial consultation with a case manager and
                     have a total household income at or below the area median income limits.
                     Program eligibility determination and documentation guidance 3 required that
                     annual income include the current gross income of all adult household
                     members, income documentation be dated within 30 days before the time of
                     application, and total household income be at or below 50 percent of the area
                     median income.

                •    Two participants received program funds totaling $2,446 although they were
                     not eligible to receive assistance because they were not at risk of being
                     homeless. Documentation in their participant files showed that these
                     participants were moving voluntarily. Section I of the HUD notice stated that
                     the purpose of the Homelessness Prevention and Rapid Re-Housing Program
                     was to provide homelessness prevention assistance to households who would
                     otherwise become homeless and to provide assistance to rapidly re-house
                     persons who are homeless.

                •    One participant received program funds totaling $1,440 although ineligible
                     due to an apparent conflict of interest. The participant received assistance for
                     a property that was partially owned by the County’s grants manager. The
                     grants manager was responsible for administering the grant and received
                     training and guidance related to the program. Section VII of the HUD notice
                     required that no person who was an employee, agent, consultant, officer, or
                     elected or appointed official of the grantee and who exercised or had exercised
                     any functions or responsibilities with respect to assisted activities, or who was
                     in a position to participate in a decision-making process or gain inside
                     information with regard to such activities, may obtain a personal or financial
                     interest or benefit from the activity, or have an interest in any contract or
                     agreement either for himself or herself or for those with whom he or she has
                     family or business ties, during his or her tenure or for 1 year thereafter.
                     Further, although HUD could grant an exception to the restrictions on a case-


2
  HUD Notice of Allocations, Application Procedures, and Requirements for Homelessness Prevention and Rapid
Re-Housing Program Grantees under the American Recovery and Reinvestment Act of 2009, effective March 19,
2009
3
  HUD’s Eligibility Determination and Documentation Guidance, dated March 2010

                                                      6
                         by-case basis upon the written request of the grantee, in this case, the County
                         did not make a written request for an exception.

                    •    One participant received program funds totaling $500 but did not lack
                         financial resources to obtain immediate housing. Documentation in the file
                         showed that the participant had a bank account with a balance of $25,000
                         available for use. The funds in the bank account could have been used to assist
                         the participant in securing immediate housing, but the County did not require
                         the participant to do so. Section IV of the HUD notice required that
                         participants be either homeless or at risk of being homeless. Participants were
                         also required to show that no appropriate housing options were available for
                         them and that they lacked financial resources and support networks to obtain
                         immediate housing.

    Some Participant Files Lacked
    Documentation


                    The County did not maintain required documentation in 102 participant files. 4
                    HUD program eligibility determination and documentation guidance required that
                    the County obtain and maintain in the participant files complete documentation
                    such as current income documentation for all family members, eviction notices,
                    lease agreements, utility shutoff notices, homeless self-certifications, self-
                    declarations of housing status, and third-party certifications to support the
                    participants’ housing status. The documentation was required to ensure that the
                    participant met program requirements. Since the files lacked documentation or
                    lacked complete documentation, we considered the related financial assistance
                    payments totaling $86,424 to be unsupported.

    Some Participant Files Were
    Not Provided


                    The County could not provide files for six participants that it assisted. Because
                    the County provided no documentation, we considered the related financial
                    assistance payments totaling $3,877 to be unsupported.

    Housing Relocation and
    Stabilization Services Expenses
    Did Not Always Meet Program
    Requirements

                    The County was approved to draw down funds for four eligible activities:
                    financial assistance, housing relocation and stabilization services, data collection

4
    Forty-three participant files contained more than one deficiency.

                                                            7
                    and evaluation, and administrative costs. Section IV of the HUD notice
                    specifically explained each eligible program activity and what costs could be
                    charged to it. For example, financial assistance was limited to short-term rental
                    assistance, medium-term rental assistance, security deposits, utility deposits,
                    moving cost assistance, and motel and hotel vouchers. We reviewed all $69,425
                    of the County’s expenditures for the housing relocation and stabilization services
                    activity and found that it did not always comply with these requirements. The
                    County erroneously drew down $42,770 from its financial assistance activity for
                    expenses that should have been drawn down from the housing relocation and
                    stabilization services activity. The expenses were for the salaries, benefits, and
                    other costs associated with the case manager who assisted with providing
                    stabilization services. As a result, the draw of $42,770 was unsupported.
                    Additionally, the County erroneously drew down $6,595 from its housing
                    relocation and stabilization services activity for expenses that should have been
                    drawn down from its financial assistance activity. These expenses were related to
                    participant files that had no eligibility or documentation deficiencies. As a result,
                    the draw of $6,595 was unsupported.

                    The County also charged indirect costs totaling $1,580 to the housing relocation
                    and stabilization services activity without getting approval from the
                    Commonwealth to charge indirect costs to the grant. Regulations at 2 CFR (Code
                    of Federal Regulations) Part 225 require departments or agencies desiring to
                    claim indirect costs to prepare an indirect cost rate proposal. The Commonwealth
                    informed us that the County did not submit an indirect rate proposal for review
                    and approval. As a result, the $1,580 was ineligible.

                    In addition, the County charged $653 in excess salary and benefit costs to the
                    housing relocation and stabilization services activity. The timesheets, wage
                    journals, and revenue and expense reports did not support all of the expenditures.
                    As a result, the $653 was unsupported.

    Data Collection and
    Administrative Expenses Did
    Not Always Meet Program
    Requirements

                    We reviewed all $49,109 5 of the County’s expenses for data collection and
                    evaluation and administrative costs. The County did not always ensure that these
                    expenses met program requirements. As a result, it incurred ineligible costs
                    totaling $790 and unsupported costs totaling $18,830. The following paragraphs
                    provide details.

                    •   The County erroneously drew down $16,815 from its data collection and
                        evaluation activity for expenses that should have been drawn down from its
5
    Data collection and evaluation costs of $39,986 plus administrative costs of $9,123 equals $49,109.

                                                           8
                housing relocation and stabilization services activity. Section IV of the HUD
                notice specifically explained each eligible program activity under the grant
                and what costs could be charged to it. The HUD notice required that only
                collecting and reporting expenses associated with HUD’s homeless
                management information system be charged to the data collection and
                evaluation activity. The expenses were for the salaries, benefits, and other
                costs associated with the case manager who assisted with providing
                stabilization services. As a result, the draw of $16,815 was unsupported.

            •   The County charged indirect costs totaling $790 to the data collection and
                evaluation activity without getting approval from the Commonwealth to
                charge indirect costs to the grant. Regulations at 2 CFR Part 225 require
                departments or agencies desiring to claim indirect costs to prepare an indirect
                cost rate proposal. The Commonwealth informed us that the County did not
                submit an indirect rate proposal for review and approval. As a result, the $790
                was ineligible.

            •   The County charged $2,015 for salaries that were unsupported. It charged
                $1,309 to administrative costs for the salaries of three employees that did not
                have timesheets to support their hours charged to the grant. It also charged
                $706 in excess salaries to the data collection and evaluation activity. The
                timesheets, wage journals, and revenue and expense reports did not support
                the costs. Section IV of the HUD notice required that administrative costs be
                used only for the County’s staff salaries associated with those who
                administered the grant. Therefore, the $2,015 was unsupported.

Habitability Inspections Were
Not Always Performed


            The County did not comply with program habitability inspection requirements.
            Section VII of the HUD notice required the County to conduct initial and follow-
            up inspections of housing units into which a program participant would be
            moving. Of the 205 participants, 51 had moved into units. The County was
            required to inspect those 51 units. It did not inspect 40 of the 51 units as required.
            The participant files lacked documentation to demonstrate that inspections were
            conducted. The County agreed that it did not conduct all of the necessary
            inspections because it lacked the human resources necessary to conduct them.
            Without the inspections, there was no assurance that the units met habitability
            standards.




                                              9
    The County Had Excess Funds
    That Need To Be Returned


                   During the Commonwealth’s July 2012 monitoring review, it determined that the
                   County had $3,541 in grant funds on deposit in its bank account. The funds
                   represented several payments that had been made to landlords but were returned
                   to the County for various reasons. Article III of the County’s grant agreement
                   required it to return unused funds to the Commonwealth. Further, the Recovery
                   Act required grantees and subgrantees to expend 100 percent of the program
                   funds within 3 years from the date on which HUD signed the grant agreement. It
                   stated that any funds not spent by the deadline would be recaptured. HUD signed
                   the grant agreement with the Commonwealth on August 13, 2009, and the funds
                   were still in the County’s bank account as of February 2014. Therefore, the
                   County needs to remit the $3,541 to the Commonwealth so it can be returned to
                   the U.S. Treasury.

    Conclusion

                   The County did not administer its Homelessness Prevention and Rapid Re-
                   Housing Program in accordance with Recovery Act requirements. This condition
                   occurred because the County did not provide adequate oversight of its case
                   worker, who was responsible for determining client eligibility and maintaining
                   documentation in the participant files, to demonstrate compliance with
                   requirements and support disbursements. Also, it lacked controls to ensure that it
                   complied with program requirements for incurring expenses, processing draws,
                   and conducting inspections. As a result, the County made ineligible expenditures
                   totaling $35,031 6 and unsupported expenditures totaling $159,149. 7 It also needs
                   to return $3,541 in unused program funds. To resolve these issues, the County
                   needs to remit payment for the ineligible costs and unused funds and either
                   provide documentation to support the unsupported costs or remit payment for the
                   costs it cannot support. The County stated that it has resumed working to obtain
                   further documentation and supporting evidence for the deficient participant files
                   and looks forward to working with HUD and the Commonwealth to address the
                   audit issues.

    Recommendations

                   We recommend that the Director of HUD’s Philadelphia Office of Community
                   Planning and Development require the County to




6
    $35,031 = $32,661 + $1,580 + $790
7
    $159,149 = $86,424 +$3,877 + $42,770 + $6,595 + $653 + $16,815 + $2,015

                                                      10
                  1A.      Remit to the Commonwealth $15,1838 from non-Federal funds for the
                           ineligible expenditures identified by the audit so the Commonwealth can
                           return the funds to the U.S. Treasury.

                  1B.      Provide documentation to support the $159,149 in unsupported
                           expenditures identified by the audit or repay the Commonwealth from
                           non-Federal funds for any amount that it cannot support so the
                           Commonwealth can return the funds to the U.S. Treasury.

                  1C.      Remit to the Commonwealth $3,541 in program funds on deposit in its
                           grant account so the Commonwealth can return the funds to the U.S.
                           Treasury.




8
 This figure is net of $19,848 of ineligible expenditures related to 26 participant files that the Commonwealth also
determined were ineligible during its monitoring review ($35,031 - $19,848 = $15,183).

                                                         11
                        SCOPE AND METHODOLOGY

We conducted our onsite work from July through December 2013. We performed our work at
the County’s office located at 399 South Fifth Street, Sunbury, PA; the Commonwealth’s office
located at 400 North Street, Harrisburg, PA; and our office located in Baltimore, MD. The audit
covered the period September 2009 through June 2012 but was expanded when necessary to
include other periods.

To accomplish our objective, we reviewed

   •   The Recovery Act, Office of Management and Budget implementation guidance, and
       applicable HUD regulations and guidance.

   •   The County’s grant agreement; grant application; accounting records; program-related
       files; single audit reports for its fiscal years 2010, 2011, and 2012; policies and
       procedures; and organizational chart.

   •   The Commonwealth’s grant agreement with HUD, documentation related to its desk and
       onsite monitoring reviews of the County, and other program-related records.

   •   Files for 199 participants assisted by the County to determine whether they contained
       documentation to demonstrate that the participants met program eligibility requirements
       and included documents such as support for expenses, habitability inspection reports, and
       lead-based paint disclosures.

   •   Drawdown reports for the County’s grant from HUD’s Integrated Disbursement and
       Information System.

   •   The County’s 20 drawdown requests and related supporting documentation totaling
       $291,829 to determine whether expenses charged to its grant were eligible and supported
       according to program requirements.

We also interviewed responsible County employees, staff from the Commonwealth of
Pennsylvania’s Department of Community and Economic Development, and officials from
HUD’s Philadelphia Office of Community Planning and Development.

To achieve our audit objective, we relied in part on computer-processed data from the County’s
accounting system. We used the computer-processed data to determine the amount of grant
funds the County used. Although we did not perform a detailed assessment of the reliability of
the data, we did perform a minimal level of testing and found the data to be adequate for our
purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit

                                              12
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Controls that management has implemented to reasonably ensure that (1) funds
                   are withdrawn in accordance with program guidelines and (2) participants meet
                   program eligibility and documentation requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

               •   The County did not provide adequate oversight of the employee responsible for
                   determining participant eligibility and maintaining documentation.

               •   The County lacked controls to ensure that it complied with program
                   requirements for incurring expenses, processing draws, and conducting
                   inspections.
                                                 14
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

     Recommendation                                                 Funds to be put to
                             Ineligible 1/        Unsupported 2/
         number                                                     better use 3/
           1A                  $15,183
           1B                                       $159,149
           1C                                                             $3,541


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the County implements our
     recommendation, it will return unused grant funds to the U.S. Treasury.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         16
17
18
                        OIG Evaluation of Auditee Comments

Comment 1   We did not identify any payments from the County to clients (program
            participants). Section IV.A.1 of the HUD notice prohibited the County from
            making payments directly to program participants.




                                           19
